CERTIFICATE OF SERVICE
No. 20-1202

IN THE SUPREME COURT OF THE UNITED STATES
WILLIAM J. MILLER,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

Under Supreme Court Rules 29.3 and 29.5, I, Mahesha P. Subbaraman, as
a member of the Bar of the Supreme Court and counsel-of-record for amicus curiae
Restore the Fourth, Inc., certify that on April 14, 2021, a true and correct copy of
the accompanying certiorari-stage amici curiae brief was sent by U.S. Priority Mail
and by e-mail to counsel-of-record for Petitioner and Respondent as noted below:

Counsel-of-Record for Petitioner

Counsel-of-Record for Respondent

Amir H. Ali

Elizabeth B. Prelogar

RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER

ACTING SOLICITOR GENERAL
OF THE UNITED STATES

501 H. Street NE, Ste. 275
Washington, DC 20002
amir.ali@macarthurjustice.org

950 Pennsylvania Ave., N.W.
Washington, D.C. 20530- 0001
SupremeCtBriefs@usdoj.gov

All parties required to be served have been served.

Dated: April 14, 2021

